No. 19-757
In the

Supreme Court of the United States
ARIZONA LIBERTARIAN PARTY AND MICHAEL KIELSKY,
Petitioners,
v.
KATIE HOBBS, ARIZONA SECRETARY OF STATE,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY TO BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI

Oliver B. Hall
Counsel of Record
Center for Competitive Democracy
P.O. Box 21090
Washington, D.C. 20009
(202) 248-9294
oliverhall@competitivedemocracy.org
Counsel for Petitioners

INTRODUCTION
Petitioners Arizona Libertarian Party (“AZLP”) and Michael Kielsky
respectfully submit this Reply to the Brief in Opposition to Petition for Certiorari
(“Opposition” or “Opp.”) filed by Respondent Arizona Secretary of State Katie Hobbs
(“the Secretary”).
ARGUMENT
A respondent who declines to address the issues presented in a constitutional
challenge to a statutory scheme implicitly concedes that there is no defense.
Such is the case here. The Secretary does not even acknowledge the central
issue that Petitioners raise in this case – whether Arizona may require that
candidates seeking access to the AZLP’s primary election ballot demonstrate support
from voters who are not eligible to vote in that election – until the final paragraph of
her Opposition. (Opp. at 17.) That paragraph is notably devoid of legal authority, and
for good reason: to defend Arizona’s statutory scheme on the merits is to defy the
entire body of this Court’s ballot access jurisprudence.
Time and again this Court has reaffirmed that states have a legitimate interest
in limiting access to the ballot to candidates who can demonstrate a “modicum of
support” from voters who are eligible to vote for them. Contrary to the Secretary’s
assertion, however, this Court has never held that states may require that candidates
seeking access to a party’s primary election ballot demonstrate support “from both
voters eligible to vote in the primary” and from general election voters who are
ineligible to vote in the primary. (Opp. at 17.) Such an irrational requirement cannot
withstand scrutiny even under the most deferential standard of review available
1

under the Anderson-Burdick analytic framework. Arizona does not have a legitimate
interest in requiring that candidates demonstrate support from voters who are not
eligible to vote for them, nor can the Secretary articulate a rational basis for that
requirement. Hence the Secretary’s attempt to bury this fundamental issue in the
final paragraph of her Opposition, and her failure to cite a single decision of this
Court or any other that supports her position. There is none.
The remainder of the Secretary’s Opposition amounts to an exercise in evasion
and obfuscation. It proceeds from the false premise that Petitioners present a
challenge to Arizona’s requirements for accessing the general election ballot, not their
own primary election ballot. (Opp. at 5 (“The road to the general election ballot
necessarily travels through the primary election first.”).) That simply is not so. AZLP
is a ballot-qualified political party in Arizona: it is entitled to place its nominees on
the general election ballot by virtue of the size of its membership. See A.R.S. § 16804(B) (providing that a party “is entitled to continued representation as a political
party on the official ballot for state, county, city or town officers if … such party has
registered electors in the party equal to at least two-thirds of one percent of the total
registered electors in such jurisdiction”).1 The Secretary studiously omits mention of
this fact, but it is critical to a proper understanding of the issues raised in this case.
Petitioners do not challenge § 16-804(B), which authorizes them to place their
nominees on Arizona’s general election ballot; rather, they challenge §§ 16-321 and

1

All statutory citations hereinafter are to the Arizona Revised Statutes unless otherwise indicated.

2

16-322, which impose signature requirements so high that it is practically impossible
for candidates to qualify for AZLP’s primary election ballot.
It is uncontested that as applied, §§ 16-321 and 16-322 require that candidates
who seek access to AZLP’s primary election ballot demonstrate support from as much
as 30 percent of the voters eligible to vote in that election. (Pet. App. 72.) Such a
requirement is unconstitutional. See Storer v. Brown, 415 U.S. 724, 739 (1974)
(observing that a requirement “substantially more than 5% of the eligible pool …
would be in excess, percentagewise, of anything the Court has approved…”); see also
Dart v. Brown, 717 F.2d 1491, 1506 (5th Cir. 1983) (“requirements as high as five
percent are not unconstitutional per se, but requirements substantially in excess of
five percent probably are”) (quoting L. Tribe, American Constitutional Law, 784
(1978)). According to the Secretary, however, §§ 16-321 and 16-322 are not
unconstitutional because the modicum of support that they require is “miniscule”
when measured as a percentage of Arizona’s “1.2 million” independent or unaffiliated
voters, who are not eligible to vote in AZLP’s primary election. (Opp. at 3.) But this
assertion merely confirms that the Secretary, like the Court of Appeals below, is
relying on an improper legal standard. The modicum of support that a statute
requires of candidates is properly measured as a percentage of the voters eligible to
vote for the candidates, as this Court has recognized in every case in which it has
addressed the issue, and not, as the Secretary erroneously implies, as a percentage
of “the people [the candidates] hope to ultimately represent…” (Opp. at 1.)
Candidates who are unable to comply with §§ 16-321 and 16-322 by seeking
signatures from the voters who are eligible to vote for them in AZLP’s primary (i.e.,
3

registered Libertarians) have just one alternative: they must seek signatures from
independent and unaffiliated voters who are not eligible to vote for them. As
Petitioners

have

explained,

such

an

“alternative”

merely

replaces

one

unconstitutional burden – the excessive signature requirements imposed by §§ 16321 and 16-322 – with another: a form of compelled association that not only violates
Petitioners’ associational rights, see California Democratic Party v. Jones, 530 U.S.
567 (2000), but also lacks any rational basis. It bears repeating that the Secretary
cannot articulate any legitimate state interest in requiring that a candidate, as a
prerequisite to appearing on AZLP’s primary election ballot, demonstrate support
from voters who are not eligible to vote for that candidate.
The Secretary’s assertion that Petitioners “are attempting to use their
internal political party choices to manipulate Arizona law to obtain preferential ballot
access” does not comport with reality. (Opp. at 3, 13.) AZLP maintained a closed
primary long before Arizona amended §§ 16-321 and 16-322 in 2015, and it
successfully defended its right to do so in federal court. See Arizona Libertarian Party
v. Bayless, 351 F.3d 1277 (9th Cir. 2003) (remanding for factual determination as to
whether statute compelling AZLP to allow independent voters to vote in its primary
was unconstitutional under Jones); Arizona Libertarian Party v. Brewer, No. 02-144TUC-RCC (D. Az. Sept. 27, 2007) (unpublished order) (permanently enjoining the
Secretary from enforcing that statute). Despite this background, and contrary to this
Court’s unequivocal conclusion that a state may not “forc[e] political parties to
associate with those who do not share their beliefs,” especially “at the critical juncture
at which party members traditionally find their collective voice and select their
4

spokesman,” Jones, 530 U.S. at 586, the Secretary insists that Petitioners’ injuries
are “self-inflicted”. (Opp. at 10-11.) Here, once again, the Secretary betrays the extent
to which her position conflicts with this Court’s precedent. Jones makes clear that a
state may not compel a political party to associate with non-members, particularly
with respect to the procedures by which it selects its nominees for public office. Yet
the Secretary’s Opposition confirms that is precisely what Arizona seeks to do here.
(E.g., Opp. at 15 (“As the lower courts noted, there is no question that Arizona’s
signature requirements would be constitutional if the ALP chose to hold an open
primary.”).)
Finally, the Court of Appeals’ application of an improper legal standard and
its failure to follow this Court’s holding in Jones places it in conflict with its sister
Circuit Courts of Appeal that maintain fidelity with this Court’s precedents. The
Court of Appeals’ decision therefore injects intolerable confusion into this area of the
law, with consequences for voters, candidates and political parties nationwide. It
should not be allowed to stand.

5

CONCLUSION
For the foregoing reasons, and those stated in Petitioners’ Petition for
Certiorari, the Petition should be granted.
Dated: June 9, 2020

Respectfully submitted,
/s/Oliver B. Hall
Oliver B. Hall
Counsel of Record
Center for Competitive Democracy
P.O. Box 21090
Washington, D.C. 20009
(202) 248-9294
oliverhall@competitivedemocracy.org
Counsel for Petitioners

6

